No. _ _ _ _ __

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

ROBERT L. ROSE,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33. l(h), I certify that the Petition for Writ of Certiorari
contains 5,485 words, excluding the parts of the document that are exempted by the Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoin · true and correct.
EXECUTED on the 16th day of September,

Federal Defender for the District of Montana
*DAVID F. NESS
Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South, Suite 30 I
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner

